  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
DTSA                  Defense Technology Security Administration
USXPORTS              US Exports System
                    Department of Defense Office of Inspector General
Report No. D-2006-067                                                                   March 30, 2006
      (Project No. D2005-D000LG-0220.000)


                               Controls Over Exports to China

                                        Executive Summary

Who Should Read This Report and Why? Personnel who are responsible for advising
DoD management on releasing exports to China should read this report because it
discusses the effectiveness of the DoD process for reviewing applications to export
technology to China.

Background. Public Law 106-65, “National Defense Authorization Act for FY 2000,”
requires the Inspectors General of the Departments of Commerce, Defense, Energy, and
State to conduct annual reviews on the transfer of militarily sensitive technology to
countries of concern. For 2006, the Inspectors General decided to review controls over
exports to China.

According to the Export Administration Regulation, the Department of Commerce can
consult with other Federal departments, including DoD, on reviews of export license
applications. Within DoD, the Director of the Defense Technology Security
Administration is responsible for reviewing license applications and making decisions on
export license applications, to include documenting the analytical basis of the decisions.
If the other departments disagree with DoD decisions, DoD can appeal.

Results. The Defense Technology Security Administration (the Administration) had
controls in place and operating for its application review process. The Administration
was reviewing and processing 97 percent of its export applications related to China
exports within the 30-day regulatory time limit. However, improved controls were
needed in:
      •    documenting its analyses on export applications. Of the 90 applications 1
           reviewed, 69, or 76.6 percent, did not have sufficient analyses documented to
           support Administration decisions,

      •    inserting documents into its automated system to support its analyses. Of the
           90 applications reviewed, 62, or 68.8 percent, did not contain documents
           supporting the analysis on applications, and

      •    elevating disagreements with its decisions. Of 21 denial decisions, 13, or
           61.9 percent, of the export denial decisions were overturned and approved by the
           Department of Commerce; those decisions were not elevated in the appeal
           process.

1
    Judgment sample percentages do not generalize to the universe export applications processed by the
    Administration in FY2004.
As a result, the Administration made some unsupported decisions and other decisions
were not elevated to the full extent. The Administration decisions could allow the export
of technology that could threaten U.S. efforts to maintain regional stability; hinder
nonproliferation of nuclear, chemical, and biological weapons; and adversely effect
national security. The Director, Defense Technology Security Administration needs to
record analyses and documentation supporting reviews in the export automated system.
(See the Finding section of the report for the detailed recommendations.)

Management Comments and Audit Response. The Acting Deputy Under Secretary for
Technology Security Policy and National Disclosure Policy concurred or partially
concurred with five of the seven recommendations and nonconcurred with the other
two recommendations. The Acting Deputy Under Secretary concurred with updating
export review process guidance; informing users to maintain access with the automated
export application processing system; and providing written responsibilities, as well as
recording training, for the management control program.

The Acting Deputy Under Secretary partially concurred with adjusting her program for
assessing the effectiveness of management controls, but during the audit, she revised the
management control plan and issued it in March 2006. We consider this action as
meeting the intent of this recommendation. The Acting Deputy Under Secretary also
agreed to elevate decisions as much as the appeal process will allow, which meets the
intent of the recommendation.

The Deputy Under Secretary stated that she nonconcurred with recording additional
analyses and documents to support decisions on some export applications. However, the
Export Administration Regulation requires any analyses to be recorded that includes the
factual and analytical basis supporting the advice, recommendations, or decisions made
on an export application. Therefore, we request the Acting Deputy Under Secretary
reconsider her position and provide additional comments by May 2, 2006.
Table of Contents

Executive Summary                                                            i

Background                                                                   1

Objectives                                                                   2

Finding
     Controls Over Exports to China                                          4

Appendixes
     A.   Scope and Methodology                                             16
     B.   Prior Coverage                                                    18
     C.   Export Application Appeal Process                                 20
     D.   Report Distribution                                               21

Management Comments
     Deputy Under Secretary of Defense for Technology Security Policy and
          National Disclosure Policy                                        23
Background
           Annual Review of Technology Transfers. In FY 2000, Congress passed Public
           Law 106-65,1 requiring that transfers of sensitive technology to countries of
           concern be reviewed starting in 2000 and ending in 2007. For 2006, six
           Inspectors General decided to review controls over exports to China. The six
           Inspectors General represented the Departments of Commerce, Defense, Energy,
           Homeland Security, State, and the Central Intelligence Agency. This audit report
           addresses the DoD portion of the 2006 interdepartmental review.

           Legislative Controls Over Exports. The primary legislative authority for
           controlling the export of goods and technologies with both civilian and military
           uses (dual-use) is the Export Administration Act of 1979, as amended
           (section 2401, title 50, United States Code.)2 The Export Administration
           Regulation states that the Export Administration Act authorizes the Secretary of
           Commerce to issue procedures for exporting dual-use items.

           Department of Commerce. The Export Administration Act authorizes the
           Bureau of Industry and Security, Department of Commerce to oversee the export
           of dual-use items. The Export Administration Regulation implements the
           requirements of the Export Administration Act and includes the Commerce
           Control List of dual-use items—goods and technologies—that are subject to the
           export review process.

           U.S. Export Process. All items on the Commerce Control List must have an
           approved license, or an exception granted by the Department of Commerce, to be
           exported from the United States. The type of item being exported, the country of
           final destination, and the end-use of the item determines whether an export
           license is needed or an exception can be granted.

           DoD Role in the Export Process. Within DoD, the Deputy Under Secretary of
           Defense for Technology Security Policy and National Disclosure Policy is
           responsible for developing and issuing policies controlling exports. The Deputy
           Under Secretary also serves as the Director of the Defense Technology Security
           Administration (DTSA), who is responsible for coordinating reviews of license
           applications and reporting decisions on those reviews to the Department of
           Commerce. DTSA processed 1,719 applications amounting to more than
           $811 million in FY 2004 for exports to China.


1
    We performed this audit to comply with Public Law 106-65, “National Defense Authorization Act for
    FY 2000,” section 1402, “Annual Report on Transfers of Militarily Sensitive Technology to Countries
    and Entities of Concern,” October 5, 1999.
2
    The Export Administration Act expired in August 1994. However, the President, under the authority of
    the International Emergency Economic Powers Act (50 U.S.C. 1702), continued the provision of the
    Export Administration Act through Executive Orders 12924 and 13222, “Continuation of Export Control
    Regulations,” August 19, 1994, and August 17, 2001, respectively. Each year thereafter, and most
    recently on August 2, 2005, the President issued a notice, “Continuation of Emergency Regarding Export
    Control Regulations,” continuing the emergency declared by Executive Order 13222.

                                                     1
Objectives
    The overall audit objective was to determine whether controls over exports to
    China were in place and operating as intended. Specifically, we determined
    whether DoD assessed applications for exports to China in accordance with the
    requirements of the Export Administration Regulation. We also reviewed the
    management control program as it related to the overall objective. See
    Appendix A for a discussion of the scope and methodology and Appendix B for
    prior coverage related to the objectives.


Managers’ Internal Control Program
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    management controls over the export application review process, and we also
    reviewed the adequacy of management’s self-evaluation of those controls.

    Adequacy of Management Controls. DTSA established a management control
    program that included:

               •   maintaining an inventory of assessable areas (or units) based on its
                   organizational functions;

               •   evaluating the effectiveness of its controls in those assessable
                   units; and

               •   publishing an annual statement of assurance on the adequacy of its
                   controls.

    DTSA had established 11 assessable units. Of the 11 units, 3 (policy
    development, export license application processing, and technology security
    assessments), were controls for processing export applications. However, we
    identified weaknesses in the DTSA self-assessment of its controls for processing
    export applications. The recommendations in this report, if implemented, should
    correct the identified weaknesses and could result in preventing exports of
    potentially militarily sensitive technology to China. A copy of this report will be
    provided to the senior official responsible for management controls in the Office
    of the Deputy Under Secretary of Defense for Technology Security Policy and
    National Disclosure Policy.

    Adequacy of Management’s Self-Evaluation. DTSA did not always support its
    decisions on export applications because it did not fully achieve requirements in


                                         2
the export administration regulation and the self-assessment of its internal
controls did not detect weaknesses in:

   •   providing complete analyses on export applications, and

   •   inserting documents into its automated system to support its analyses.

In addition, we determined that the senior management control official was not
held responsible in writing for administering the program. Further, DTSA did not
have evidence to show that operating and assessable unit managers were trained
to perform their management control duties.




                                     3
                    Controls Over Exports to China
                    The DTSA controls were in place and operating for reviewing applications
                    to export to China. Specifically, the DTSA reviewed and processed
                    97 percent of its export applications for China within the 30-day
                    regulatory time limit. However, improved controls were needed in:

                        •   documenting its analyses on export applications. Of the
                            90 judgmentally selected applications3 reviewed, 69, or
                            76.6 percent, did not have sufficient analyses documented to
                            support DTSA decisions,

                        •   inserting documents into its automated system to support its
                            analyses. Of the 90 applications reviewed, 62, or 68.8 percent, did
                            not contain documents supporting the analysis on applications,

                        •   elevating disagreements with its decisions. Of 21 decisions, 13, or
                            61.9 percent, of export denial decisions, were overturned and
                            approved by the Department of Commerce; those decisions were
                            not always elevated in the appeal process, and

                        •   assigning management control responsibilities in writing and
                            recording management control training.

                    These conditions existed because the DTSA did not fully achieve
                    requirements in the Export Administration Regulation and because
                    management’s assessment of its internal controls did not detect
                    weaknesses in the application review process.

                    As a result, DTSA made some unsupported decisions that could allow the
                    export of technology that could threaten U.S. efforts to maintain regional
                    stability; hinder nonproliferation of nuclear, chemical, and biological
                    weapons; and adversely effect national security.


Controls Over the Export Application Process
           DTSA controls were in place for reviewing applications for exports to China.
           However, DTSA analyses were not always sufficient and its decisions on those
           applications were not always supported with documents. DTSA processed
           1,719 applications for export licenses to China during FY 2004.

           Processing Export Applications. DTSA generally processed applications for
           exports to China in a timely manner. The Export Administration Regulation
           states that an agency such as DoD that is reviewing export applications must
           provide the Department of Commerce with a recommendation either to approve

3
    Judgment sample percentages do not generalize to the universe of export applications processed by
    DTSA in FY 2004.

                                                      4
(with or without conditions) or deny a license application within 30 days of
receipt. In FY 2004, DTSA processed 1,719 applications for exports to China and
1,668 of the 1,719 applications, 97 percent, were processed in 30 days or less.

License Review and Analysis Process. DTSA pre-screens applications from the
Department of Commerce and decides whether to refer them to other DoD
organizations for review. DTSA did not refer the applications to other DoD
organizations if the applications could be processed in a thorough, responsive,
and consistent manner, and complied with guidance. If the pre-screen criteria
were not met, DTSA referred applications to other DoD organizations for review.
The export application review process is shown in the following figure.


   Application            Prescreening               Application           DoD Organizations
  Received From              Shows                   Referred to             Reply to DTSA
   Commerce               Application                   DoD               as DTSA Develops its
                             Needs       Yes        Organizations               Decision
                             Further                 for Review
                            Review
                  No




                                    DTSA and
                                       DoD                Can DTSA and     No     Deputy Under
      Do the DTSA and              Organizations              DoD                   Secretary
      DoD Organizations               Discuss             Organizations              Makes
      Decisions Agree?             Differences in            Resolve                Decision
                             No      Decisions            Disagreement?
       Yes
                                                              Yes
                                                                                    Decision
                                                                                     Sent to
                                                                                   Commerce

  Figure 1. License Application Review and Analysis Process


Role of DoD Organizations in Review Process. The Deputy Secretary of
Defense issued a memorandum on October 4, 1999, which directed DoD
organizations to follow the review process for DoD export licenses.
Subsequently, the Deputy Under Secretary of Defense for Technology and
Security Policy (currently the Deputy Under Secretary of Defense for Technology
Security Policy and National Disclosure Policy) issued a memorandum on
November 18, 1999, which provided detailed guidance to DoD organizations for
reviewing export applications. In that guidance, the Deputy Under Secretary
cited 18 DoD organizations that were responsible for reviewing export
applications.


                                            5
We compared the names of those 18 DoD organizations with a list that DTSA
provided of 42 organizations with access to the U.S. Exports System
(USXPORTS)—USXPORTS is the DTSA automated system for processing
export applications. We determined that 4 of the 18 organizations in the Deputy
Under Secretary’s guidance did not have access to the USXPORTS system;
therefore, those organizations, such as the International Security Affairs’ office
for Asia and the Pacific, were unable to electronically review export applications.
Therefore, DTSA should provide the 4 DoD organizations with access to
USXPORTS to facilitate reviews of export applications.

In addition, we noted that the Deputy Under Secretary for Technology and
Security Policy memorandum was not updated to reflect current DoD
responsibilities or organizations processing export applications. For example, the
memorandum states that the Defense Threat Reduction Agency will develop the
final DoD decision on export applications with input from DoD reviewing
organizations even though DTSA currently has this responsibility.

In addition, the memorandum cites organizations, such as the Ballistic Missile
Defense Organization, which is now the Missile Defense Agency. Therefore, the
Deputy Under Secretary of Defense for Technology and Security Policy and
National Disclosure Policy should update the guidance in the November 1999
memorandum to reflect the current organizations and responsibilities in the DoD
application review process.

Developing Decisions on Export Applications. DTSA established a process for
developing decisions on export applications, but the analyses and documentation
supporting those decisions needed improvement. Table 1 shows DTSA decisions
on applications requesting export licenses to China during FY 2004. Also,
Table 1 shows that DTSA made decisions (with conditions) to approve
1,400 export applications and to deny 253 applications. Those 1,653 applications
represented 96.1 percent of the 1,719 applications processed in FY 2004. We
judgmentally selected 30 of the 1,400 applications that DTSA approved (with
conditions) and 60 of the 253 applications that DTSA denied and reviewed them
for sufficient documentation and analyses supporting the DTSA decisions.
Documentation and Analysis Supporting Decisions on Export Applications.
Although export applications were generally processed timely, 69 of the
90 applications in our judgment sample, 76.6 percent, lacked either a sufficient
written analysis or documentation supporting the DoD decision. According to the
Principal Statutory Authority for the Export Administration Regulation:
       Recordkeeping.--The Secretary [of the Department of Commerce], the
       Secretary of Defense, and any other department or agency consulted in
       connection with a license application under this Act or a revision of a
       list of goods or technology subject to export controls under this Act,
       shall make and keep records of their respective advice,
       recommendations, or decisions in connection with any such license
       application or revision, including the factual and analytical basis of the
       advice, recommendations, or decisions.




                                           6
              Table 1. Decisions Made on Applications for Export Licenses in FY 2004
                                                Approve               Returned
                                                 with                 without                   No       Total
               Type of Export      Approve     Conditions    Deny      Action      Split4     Decision   Types
            Nuclear Materials         0              2         2          0          0           0          4
            Chemicals and             0           128         14          8          4           0        154
             Toxins
            Materials                  0           419         47          7          3          0        476
            Processing
            Electronics                0           356         84        18           8          1        467
            Computers                  0            80          4         2           0          0         86
            Telecommunications         1           332         26         6           1          1        367
            Sensors and                0            54         62         3           0          0        119
            Lasers
            Navigation and             0            15          1          1          0          0         17
             Avionics
            Marine                     0              4         2          0          0          0          6
            Propulsion Systems         0              4         2          0          1          0          7
            Other Types                0              6         9          1          0          0         16
            of Exports
            Total Applications         1         1,400        253        46         17           2       1,719


           In addition, DoD Directive 5010.38 states that each DoD field activity—DTSA is
           a DoD field activity—must implement management controls that provide
           reasonable assurance that programs, as well as administrative and operating
           functions, are efficiently and effectively carried out in accordance with applicable
           laws and management policy. Further, the Government Accountability Office,
           “Standards for Internal Control in the Federal Government,” November 1999,
           state that:
                   Control activities occur at all levels and functions of the entity. They
                   include a wide range of diverse activities such as approvals,
                   authorizations, verifications, reconciliations, performance reviews,
                   maintenance of security, and the creation and maintenance of related
                   records which provide evidence of execution of these activities as well
                   as appropriate documentation.

           DTSA used the USXPORTS system to store documents that supported analyses
           of export applications; however, USXPORTS did not contain documents that
           supported the analysis of 62 of the 90 applications, 68.8 percent, in our review.
           For example, USXPORTS did not contain documents such as intelligence reports
           to support some analyses. For those 90 applications, DTSA approved 30 with
           conditions and denied the 60 other applications. For 69 of the 90 applications,
           76.6 percent, in our review, the analysis recorded in USXPORTS was not
           sufficient to support the DTSA decision on the application. For example, DTSA

4
    DTSA personnel informed us that split decisions involve approving and/or denying certain elements
    within the same license application. For example, DTSA might approve (with conditions) some end
    users on a license application but deny some of the other end users on that same application.

                                                      7
           did not record any analyses for some items, but decided to approve the items
           (with conditions) for export.

           During our review, we determined that DTSA returned some applications to the
           Department of Commerce that were not reviewed by other DoD organizations. In
           FY 2004, DTSA returned 2765 of the 1,719 applications, 16.1 percent, that it
           processed during pre-screening to the Department of Commerce without referring
           them to other DoD organizations. DTSA returned those applications to the
           Department of Commerce in an average of 5 days (25 days before the required
           time limit). We reviewed each of the 2766 applications and determined that
           DTSA did not record its analyses as well as documents did not exist that could
           support any of those applications in USXPORTS.

           Although DTSA generally processed applications for exports to China timely, it
           should have recorded its analyses and documentation in USXPORTS to support
           the basis for its decisions. Previously documented analyses with supporting
           documentation from an identical application could be copied from prior
           application files and inserted into the current application file if no new
           information is received.

           Also, in cases where an application is similar to a prior application, an analysis
           should be performed on the differences between the old and the new application
           and the results recorded in USXPORTS, along with the applicable analysis and
           documentation from the prior application. Those actions could help DTSA to
           comply with the Export Administration Regulation and DoD Directive 5010.38.

           Elevating Decisions in the Export Application Review Process. The Export
           Administration Regulation requires the Departments of Commerce, Defense,
           Energy, and State to recommend decisions on reviewed applications to the
           Department of Commerce within 30 days. If all the decisions are the same, for
           example, if each Department recommends approval of an export application, the
           Department of Commerce generally makes a final decision that reflects the
           consensus of all the departments.

           If the departments’ decisions differ, the application is automatically elevated to
           the Department of Commerce Operating Committee7 for resolution. The
           Chairman of the Operating Committee considers the recommendations of each
           department and any information provided by the applicant before making a
           decision on the application.

           Each department is informed of the chairman’s decision and, if any department
           disagrees, that department may elevate the decision within 5 days by appealing to
           the Chairman of the Advisory Committee on Export Policy. This committee has
           assistant Secretariat-level membership.
5
    Our sampling of 90 applications includes prescreened applications included in the 276 applications which
    were returned to the Department of Commerce without further review.
6
    Sixteen of the 90 applications in our initial sample were also present in the sample of 276 applications.
7
    The Operating Committee’s membership includes representatives from the Departments of Commerce,
    State, Defense, Energy, the Arms Control and Disarmament Agency, the Joint Chiefs of Staff, and the
    Director of the Nonproliferation Center of the Central Intelligence Agency.

                                                        8
 Each Department Sends
 a Decision to Commerce


   Do All Departments
   Agree with Advisory           Elevate              No
   Committee on Export
     Policy Decision?                  Do All
                                     Departments
              Yes                    Agree with                                  Are all
       No                             Operating                           No   Departments
                                     Committee                  Elevate
                                                                               Decisions the
                                         Decision?                               Same?

                    Do All Departments          Yes                                 Yes
                    Agree with Export
 Elevate                                         No        Elevate
                      Administration                                               The
                      Review Board                                               President
                        Decision?

                               Yes

                                               Final Decision

 Figure 2. Export Application Appeal Process

DTSA did not always exercise its option to elevate decisions overturned by the
Operating Committee. We determined that 13 of 21 DTSA denial decisions had
sufficient analysis and documentation in USXPORTS, but that the Operating
Committee overturned the decisions. DTSA decided not to appeal and elevate
these decisions to the Advisory Committee; however, its records did not disclose
why these decisions were not elevated in the appeal process.

If the Advisory Committee had not approved its decision, DTSA could have
appealed to the Export Administration Review Board. This Board has
Secretariat-level membership. If the Board disagreed with DTSA’s decision,
DTSA could elevate its decision to the President of the United States. See
Appendix C for details on the membership and responsibilities of the committees
and board in the application appeal process.

DTSA Actions to Gain Agreement with its Decisions to Deny Applications.
During the audit, DTSA took action to gain agreement on some of its denial
decisions. For example, in September 2005, DTSA sent a memorandum to the
Department of Commerce requesting a change in the Export Administration
Regulation. DTSA requested the Department of Commerce to change the Export
Administration Regulation to deny exports to China if an approval would have an
effect on national security. To emphasize its concerns, DTSA provided the
following examples:



                                           9
       . . . at the March 26, 2004 ACEP [Advisory Committee on Export
       Policy meeting], the agencies voted 3-1 to deny a gas analyzer to a
       Chinese end-user. . . . However, a denial could not be issued because
       the item was not controlled for NS [National Security] reasons.

       A similar case, . . . for CB [Chemical and Biological] controlled
       hydrofluoric acid and nitric acid to a Chinese end-user was initially
       denied 4-0 at the December 19, 2003 meeting of the Advisory
       Committee on Export Policy. Commerce issued an approval, as the
       interagency could not legally sustain an NS [National Security]-based
       denial for CB [Chemical and Biological]-controlled items, despite
       serious concerns that this item was being used by the Chinese military.

Thus, DTSA took positive actions to appeal the final decision on these
applications. However, for the 13 applications that DTSA denied and were
subsequently approved, DTSA could have taken further actions toward appealing
and elevating its decisions.

In FY 2004, DTSA made decisions to deny 253 of the 1,719, 14.7 percent, export
applications it processed for China. We reviewed 60 of those 253 denial
decisions, which represented all the DTSA denial decisions in our sample of
90 applications, to determine whether DTSA appealed and elevated its decisions.
According to data recorded in USXPORTS, DTSA appealed and elevated one
decision above the Operating Committee level.

Further review showed that 21 of the 60 decisions to deny applications had
sufficient analysis and documentation in USXPORTS. The other 39 denial
decisions may have been justifiable, but insufficient analysis or documentation in
the USXPORTS system did not allow us to determine their validity. For 13 of the
21 decisions, 61.9 percent, DTSA decided not to elevate its denial decisions. Of
the 13 decisions, 1 application was approved to export chemicals that may be
used as precursors for toxic chemical agents. The other 12 applications were
approved to export thermal imaging systems, which could potentially be used for
military purposes by China.

In response to our findings, DTSA stated that the greatest obstacle to elevating
decisions is a system bias that favors approving licenses. In addition, DTSA
contended that DoD was burdened with the responsibility for elevating decisions
because it was rendering a decision to deny a license. Further, DTSA responded
to a draft of this report and stated that:
       . . . DTSA has consistently made sound decisions about escalation
       based upon the relative importance of national security concerns, prior
       precedent, effectiveness of mitigation measures, and the likelihood of
       success, carefully weighting the collective judgment of licensing
       officers, technical experts, policy advisors, and threat assessment
       officers with years of experience in the export licensing business. . . .

While DTSA cited concerns that the Export Administration Regulation was
written to promote the approval of export licenses, the regulation also establishes
controls over exports to countries of concern to the United States. We
coordinated with the Inspector General, Department of Commerce on potential
                                         10
     recommendations that could modify the current export policies, practices, and
     regulations related to China and focus on denying items that potentially contribute
     to China’s military development. However, until the export rules for China
     change, DoD assumes part of the risk that exports may have an adverse effect on
     the United States when valid denial decisions are overturned and not elevated in
     the appeal process. The Department can mitigate this risk by elevating decisions
     to the fullest extent possible when the appeal process does not produce a decision
     that supports the national security posture.


Assessment of Controls for Export Applications
     DTSA did not adequately document its decisions on applications for making
     exports to China because its program for assessing the adequacy of internal
     controls was not fully effective. DoD Instruction 5010.40 states that each DoD
     Component must establish and maintain a process that identifies, reports, and
     corrects management control weaknesses.

     DTSA Management Control Program. The DTSA management control
     program included:

                •   maintaining an inventory of assessable areas or units based on its
                    organizational functions;

                •   evaluating the effectiveness of its controls in those assessable
                    units; and

                •   publishing an annual statement of assurance on the adequacy of its
                    controls.

     DTSA had established 11 assessable units. Three of the 11 units (policy
     development, export license application processing, and technology security
     assessments) were controls for processing export applications.

     DTSA Assessment of Controls. The DTSA self-assessment of its internal
     controls for the three assessable units responsible for processing export
     applications, was not fully effective. An effective self-assessment program
     should have found the weaknesses in documenting analyses on export
     applications and inserting documents into USXPORTS to support analyses.

     DTSA management did not provide written responsibilities to the senior
     management control official for administering the program. In addition, DTSA
     could not provide documentation showing that operating and assessable unit
     managers were trained to perform their duties. DTSA needs to adjust its self-
     assessment program to monitor more closely the analyses and documentation
     recorded in USXPORTS.




                                          11
Impact of DoD Decisions on Exports
    DTSA made some decisions that it did not support with sufficient documentation
    in USXPORTS. Also, DTSA accepted some risks to national security when it did
    not elevate valid denial decisions, which had been overturned and approved by
    the Department of Commerce. Those overturned decisions could allow exports of
    technology that may threaten U.S. efforts to maintain regional stability; hinder
    nonproliferation of nuclear, chemical, and biological weapons; or adversely affect
    national security. Table 2 shows the number of applications with insufficient
    analyses or documentation for the four types of exports in our review.

     Table 2. Types of Items Approved for Export to China Without Sufficient
              Analysis or Documentation and their Potential Impact

                                                          National       Chemical
                                        Proliferation     Security/         and          Total
                              Regional of Nuclear         Regional       Biological   Applications
        Type of Export       Instability Weapons         Instability     Weapons       Reviewed
     Chemicals and
     Toxins                      0           0                0               2            2
     Materials Processing*      23           0                0               0           23
     Electronics                 0           7                0               0            7
     Sensors and Lasers          0           0               37               0           37
     Total                      23           7               37               2           69
    *Materials processing includes nuclear materials handling and processing.

    The Acting Under Secretary for Industry and Security, Department of Commerce,
    testified on the potential effects of exports to China at the June 23, 2005, U.S.-
    China Economic and Security Review Commission hearing.

    The Acting Under Secretary is responsible for overseeing the Bureau of Industry
    and Security’s mission to advance U.S. national security, foreign policy, and
    economic interests by regulating the export of sensitive dual-use goods and
    technologies. The Bureau of Industry and Security works with other U.S.
    Government agencies, including the Departments of State, Defense, Energy,
    Homeland Security, and Justice to protect the national security of the United
    States.

    The Acting Under Secretary testified to the following:
            China poses particular challenges for U.S. dual-use export control
            policy, because there are immense potential benefits from expanding
            trade, but, there are also serious security concerns . . .

            U.S. exports to China have continued to rise for the past 20 years, and
            in 2004, U.S. exports to China went up over 22 percent. The increase
            in U.S. exports, not surprisingly, has included some dual-use goods,



                                               12
       such as semiconductor manufacturing equipment, chemicals, chemical
       manufacturing equipment, and high performance computers.

       From a security standpoint, the U.S. Government remains concerned
       about China's modernization of its conventional military forces and the
       risk of diversion of sensitive dual-use items and technology to Chinese
       military programs. . . . Advanced telecommunications equipment–if
       illegally diverted to military end-users–could provide the Chinese
       missile, nuclear weapons and other military programs with the means
       to enhance performance capabilities in military radar applications. . . .

       In conclusion, it serves our common security, foreign policy, and
       economic interests for the United States and China to expand our
       economic relationship. At the same time, we continue to have
       significant differences with China on security and foreign policy issues
       that dictate a cautious way forward in our overall political, economic,
       and strategic relationship. While this may slow the entry of certain
       sensitive U.S. industry sectors into the Chinese marketplace, we must
       protect U.S. national security and foreign policy interests.

This testimony clearly depicts the potential adverse effects of exporting militarily
sensitive items to China. Therefore, DTSA needs to record its analyses and insert
documentation in USXPORTS to support its decisions. DTSA should also
consider elevating decisions to the fullest extent possible when the appeal process
does not produce a decision that supports the national security posture. These
actions may help to reduce unjustified exports to China and strengthen U. S.
efforts to maintain regional stability; hinder proliferation of nuclear, chemical,
and biological weapons; and offset adverse effects on national security.




                                         13
Recommendations, Management Comments, and Audit
  Response
    Revised, Redirected, and Renumbered Recommendation. As a result of
    management comments from the Deputy Under Secretary of Defense for
    Technology and Security Policy and National Disclosure Policy, we revised,
    redirected, and renumbered Recommendation 1. in the draft report to the Director,
    Defense Technology Security Administration, shown as Recommendation 1.a.
    below. Draft Recommendations 2. and 3. have been renumbered as
    Recommendations 1.b. and 2., respectively.

    1. We recommend that the Deputy Under Secretary of Defense for
    Technology and Security Policy and National Disclosure Policy:

          a. Grant access privileges to the four DoD organizations, currently
    without access to USXPORTS, to facilitate reviews of export applications.

          b. Update the guidance for the export review process to reflect
    current organizations and responsibilities.

    Management Comments. The Deputy Under Secretary of Defense for
    Technology and Security Policy and National Disclosure Policy concurred and
    stated that they would inform users, within 60 days of becoming disconnected
    from USXPORTS, of the need to maintain access. In addition, the Deputy Under
    Secretary concurred with reflecting organizational changes accurately in the
    export review process guidance.

    2. We recommend that the Director, Defense Technology Security
    Administration:

           a. Prepare written analyses to support decisions on export
    applications and maintain documents in USXPORTS to support those
    decisions.

           b. Elevate decisions to the extent possible when the appeal process
    does not produce a decision that supports the national security posture.

    Management Comments. The Acting Deputy Under Secretary of Defense for
    Technology and Security Policy and National Disclosure Policy nonconcurred
    with Recommendations 2.a. and b., stating that the conclusions forming the basis
    of the recommendations were supported by incomplete and untimely data.

    Although the Acting Deputy Under Secretary generally agreed that complete
    analysis was a necessary and proper part of the licensing process, she did not
    agree that inclusion of every facet of analysis was necessary in every application
    case file. Further, she stated that the need to augment application cases with
    additional documentation was unwarranted and demonstrated a lack of
    understanding of the review and decision process.


                                        14
In addition, the Acting Deputy Under Secretary stated that USXPORTS was
designed to avoid redundancy and to permit data retrievals via searches in
USXPORTS. Further, the Acting Deputy Under Secretary stated she had a highly
professional staff of engineers with advanced degrees and experience in DoD
laboratories, as well as analysts with intelligence, policy, and licensing
experience. This staff enabled DTSA to make most decisions without relying on
outside experts or needing to extensively document analyses performed.

Audit Response. The comments were partially responsive. In regard to
Recommendation 2.a., the Export Administration Regulation requires DoD to
make and keep records of advice, recommendations, or decisions in connection
with any license application or revision to include the factual and analytical basis
of the advice, recommendations, or decisions.

Although DTSA recorded and documented thorough analyses for some decisions,
other decisions either had no recorded analyses or needed additional analyses or
documentation recorded to support the DoD recommended decisions. In addition,
if supporting documentation exists in USXPORTS, DTSA should ensure that
cross-references are placed within the case files to link the analyses to the stored
or archived supporting documentation. Therefore, we request the Acting Deputy
Under Secretary reconsider Recommendations 2.a. and provide additional
comments by May 2, 2006, on this final report.

In regard to Recommendation 2.b., although the Acting Deputy Under Secretary
non-concurred with our finding, she agreed to elevate decisions on applications to
the extent possible; which meets the intent of the recommendation.

        c. Provide written responsibilities to the senior management control
official for administering the management control program.

       d. Maintain documentation of training that managers of operating
and assessable units receive.

Management Comments. The Acting Deputy Under Secretary concurred with
Recommendations 2.c. and d. and stated that DTSA’s management control plan,
signed in March 2006, accomplished these recommendations.

        e. Adjust the internal management control program to more
effectively assess internal controls for recording analyses and documentation
in USXPORTS.

Management Comments. The Acting Deputy Under Secretary partially
concurred with Recommendation 2.e., stating that adjustments were made to the
management control plan in March 2006 to accomplish the recommendations.
Specifically, she stated that the plan was revised and updated to include standard
operating procedures and position descriptions that assigned clear responsibilities,
roles, and duties concerning the processing of licenses. This action met the intent
of the recommendation.




                                     15
Appendix A. Scope and Methodology
   We reviewed the following documents to determine DoD responsibilities in the
   export license application review process. We reviewed Executive Orders and
   Federal laws and regulations, including the Export Administration Act and the
   associated Export Administration Regulation. In addition, we evaluated the
   adequacy of DoD directives, policies, and regulations related to the transfer of
   militarily sensitive technology to countries of concern.

   We performed this audit from June 13, 2005, through March 15, 2006, in
   accordance with generally accepted government auditing standards.

   We interviewed personnel in the following organizations:

          •   Department of Commerce;

          •   Immigrations and Customs Enforcement, Department of Homeland
              Security;

          •   Bureau of Economic and Business Affairs, Department of State;

          •   Department of the Army;

          •   Department of the Navy;

          •   Office of the Deputy Under Secretary of Defense for Technology
              Security Policy;

          •   Office of Export Controls and Conventional Arms Nonproliferation
              Policy;

          •   Washington Headquarters Services, Office of the Secretary of
              Defense;

          •   Defense Security Service;

          •   DTSA;

          •   Air Products and Chemicals, Incorporated;

          •   FLIR Systems, Incorporated; and
          •   Princeton Instruments, Incorporated.

   Our contacts with personnel in these organizations included discussions on the
   export license application review process and their roles and responsibilities.



                                        16
           We assessed the effectiveness of the DoD export license application review
           process to determine that militarily sensitive goods and technology were not
           exported to countries of concern. To complete this assessment, we judgmentally
           selected a total of 350 items1 from the 1,719 applications for China exports that
           the DTSA processed during FY 2004.

           We reviewed the applications to determine whether the DTSA was properly
           analyzing, documenting, and opining on export license applications. Also, we
           compared the DTSA final decisions on the applications with the Department of
           Commerce final decisions on the applications to identify discrepancies.

           For our sample, we obtained a database from the DTSA of all export license
           applications for exports to China. The database showed the Department of
           Commerce received 1,719 dual-use license applications requesting to make
           exports to China. We judgmentally designed a sample for reviewing 90 of the
           applications from the database. We judgmentally selected export applications
           which were approved with conditions or that DTSA denied. These two categories
           of applications represented 96.1 percent of the applications that DTSA processed
           in FY 2004. We reviewed these applications for the existence of documentation
           and the sufficiency of analyses supporting the DTSA decisions.

           Use of Computer-Processed Data. We relied on computer-processed data from
           the USXPORTS system. We summarized detailed data contained within this
           automated export licensing system. We did not find any material errors that
           would preclude our use of the computer-processed data to meet the audit
           objectives or that would change the conclusions in this report. We concluded that
           the system controls were adequate for our purposes in conducting this audit.

           Use of Technical Assistance. We received technical assistance from the DoD
           Office of Inspector General’s Quantitative Methods Division, which advised us
           on the selection of the sample size. We also received technical assistance from
           the General Counsel and Assistant Inspector General for the Office of Legal
           Counsel on the Tiananmen Square sanctions.




1
    We initially selected 90 export applications to assess whether analyses were recorded and documents
    existed to support those analyses. We determined that DTSA was returning some applications to the
    Department of Commerce without review by other DoD organizations and that 276 of the total
    1,719 applications were returned to the Department of Commerce without review by other DoD
    organizations. We reviewed each of the 276 applications to determine whether analyses were recorded
    and documents existed to support those applications. Of the 90 applications in our initial sample, 16 were
    also in the sample of 276 applications.

                                                      17
Appendix B. Prior Coverage
    During the last 5 years, the Government Accountability Office (GAO) and the
    Department of Defense Inspector General (DoD IG) have conducted multiple
    reviews discussing the adequacy of export controls. Unrestricted GAO reports
    can be accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG
    reports can be accessed at http://www.dodig.mil/audit/reports. The following
    previous reports are of particular relevance to the subject matter in this report.


GAO
    GAO Report No. GAO-01-528, “Export Controls: State and Commerce
    Department License Review Times are Similar,” June 14, 2001


DoD IG
    DoD IG Report No. D-2005-042, “Controls Over the Export Licensing Process
    for Chemical and Biological Items,” March 30, 2005

    DoD IG Report No. D-2004-061, “Export Controls: Export-Controlled
    Technology at Contractor, University, and Federally Funded Research and
    Development Center Facilities,” March 25, 2004

    DoD IG Report No. D2003-070, “Export Controls: DoD Involvement in Export
    Enforcement Activities,” March 28, 2003

    DoD IG Report No. D-2003-021, “Security: Export Controls Over Biological
    Agents (U),” November 12, 2002

    DoD IG Report No. D-2002-039, “Automation of the DoD Export License
    Application Review Process,” January 15, 2002

    DoD IG Report No. D-2001-088, “DoD Involvement in the Review and Revision
    of the Commerce Control List and the U.S. Munitions List,” March 23, 2001


Interagency Reviews
    Inspectors General of the Departments of Commerce, Defense, Energy, State,
    Homeland Security, Agriculture, and the Central Intelligence Agency Report No.
    D-2005-043, “Interagency Review of the Export Licensing Process for Chemical
    and Biological Commodities,” June 10, 2005



                                         18
Inspectors General of the Departments of Commerce, Defense, Energy, Homeland
Security, and State and the Central Intelligence Agency Report No. D-2004-062,
“Interagency Review of Foreign National Access to Export-Controlled
Technology in the United States,” April 16, 2004

Inspectors General of the Departments of Commerce, Defense, State, and the
Treasury; the Central Intelligence Agency; and the United States Postal Service
Report No. D-2003-069, “Interagency Review of Federal Export Enforcement
Efforts,” April 18, 2003

Inspectors General of the Departments of Commerce, Defense, Energy, State, and
the Treasury Report No. D-2002-074, “Interagency Review of Federal Automated
Export Licensing Systems,” March 29, 2002

Inspectors General of the Departments of Commerce, Defense, Energy, and State
Report No. D-2001-092, “Interagency Review of the Commerce Control List and
the U.S. Munitions List,” March 23, 2001




                                   19
Appendix C. Export Application Appeal Process
   Operating Committee. The Operating Committee’s voting members include
   representatives of appropriate agencies in the Departments of Commerce, State,
   Defense, Energy, and the Arms Control and Disarmament Agency. The
   appropriate representatives of the Joint Chiefs of Staff and the Director of the
   Nonproliferation Center of the Central Intelligence Agency are non-voting
   members. The Department of Commerce representative, appointed by the
   Secretary, is the chairperson of the Operating Committee and serves as the
   Executive Secretary of the Advisory Committee on Export Policy.

   The Operating Committee may invite representatives of other Government
   agencies or departments (other than those identified in this definition) to
   participate in the activities of the Operating Committee when matters of interest
   to such agencies or departments are under consideration.

   Advisory Committee on Export Policy. Voting members of the Advisory
   Committee on Export Policy include the Assistant Secretary of Commerce for
   Export Administration, and Assistant Secretary-level representatives from the
   Departments of State, Defense, Energy, and the Arms Control and Disarmament
   Agency. The appropriate representatives of the Joint Chiefs of Staff and the
   Director of the Nonproliferation Center of the Central Intelligence Agency are
   non-voting members. The Assistant Secretary of Commerce for Export
   Administration is the chairperson.

   An acting Assistant Secretary, Deputy Assistant Secretary, or equivalent of any
   agency or department may serve instead of the Assistant Secretary. Such
   representatives, regardless of rank, will speak and vote on behalf of their agencies
   or departments. The Advisory Committee on Export Policy may invite Assistant
   Secretary-level representatives of other Government agencies or departments,
   other than those identified above, to participate in the activities of the Advisory
   Committee on Export Policy when matters of interest to such agencies or
   departments are under consideration. Decisions are made by majority vote.

   Export Administration Review Board. The Export Administration Review
   Board’s voting members are the Secretary of Commerce, the Secretary of State,
   the Secretary of Defense, the Secretary of Energy, and the Director of the Arms
   Control and Disarmament Agency. The Chairman of the Joint Chiefs of Staff and
   the Director of Central Intelligence are non-voting members. The Secretary of
   Commerce is the chairperson of the Board.

   No alternate Export Administration Review Board members may be designated,
   but, the acting head or deputy head of any agency or department may serve
   instead of the head of the agency or department. The Export Administration
   Review Board may invite the heads of other Government agencies or
   departments, other than those identified in this definition, to participate in the
   activities of the Export Administration Review Board when matters of interest to
   such agencies or departments are under consideration.


                                        20
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Deputy Under Secretary of Defense (Science and Technology)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Intelligence
Under Secretary of Defense for Policy
   Deputy Under Secretary of Defense (Technology Security Policy and National
      Disclosure Policy)
Assistant to the Secretary of Defense (Nuclear and Chemical and Biological Defense
   Programs)
Director, Program Analysis and Evaluation

Joint Staff
Director, Joint Staff
   Director, Plans and Policy Directorate (J-5), Joint Staff
   Director, Force Structure, Resources, and Assessment Directorate (J-8), Joint Staff

Department of the Army
Inspector General, Department of the Army
Director, Joint Program Executive Office (Chemical and Biological Defense)

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command




                                           21
Other Defense Organizations
Director, Defense Intelligence Agency
Director, Defense Logistics Agency
Director, Defense Security Service
Director, Defense Technology Security Administration
Director, National Security Agency

Non-Defense Federal Organizations
Office of Management and Budget
Inspector General, Department of Agriculture
Inspector General, Department of Commerce
Inspector General, Department of Energy
Inspector General, Department of Health and Human Services
Inspector General, Department of Homeland Security
Inspector General, Department of State
Inspector General, Central Intelligence Agency

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
Senate Select Committee on Intelligence
Senate Committee on Foreign Relations
Senate Committee on Banking, Housing, and Urban Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform
House Committee on International Relations
House Permanent Select Committee on Intelligence




                                         22
Deputy Under Secretary of Defense (Technology
Security Policy and National Disclosure Policy)
Comments




                       23
     Final Report
      Reference




     Redirected,
     renumbered,
     and revised
     to
     Recommen-
     dation 1.a.




     Renumbered
     to
     Recommen-
     dation 1.b.




     Renumbered
     to
     Recommen-
     dation 2.c.
     and 2.d.,
     respectively




24
     Final Report
      Reference




     Renumbered
     to
     Recommen-
     dation 2.a.
     and 2.b.,
     respectively




25
26
27
     Final Report
      Reference




     Renumbered
     to
     Recommen-
     dation 2.b.




28
29
     Final Report
      Reference




     Renumbered
     to
     Recommen-
     dation 2.e.




30
31
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Readiness and Operations Support prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Wanda A. Scott
Dennis L. Conway
Jerry H. Adams
Chuck J. Chin
Woodrow W. Mack
Gustavo Rivera-Morales
Jerel L. Morton
Keyla Centeno-Aviles
Jacqueline N. Pugh
Lusk F. Penn
Dharam V. Jain
Sharon L. Carvalho
Frank R. Niranjan
Michael J. Guagliano
